<html>
<title> - USING NEW OCEAN TECHNOLOGIES: PROMOTING EFFICIENT MARITIME TRANSPORTATION AND IMPROVING MARITIME DOMAIN AWARENESS AND RESPONSE CAPABILITY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





      USING NEW OCEAN TECHNOLOGIES: PROMOTING EFFICIENT MARITIME 
  TRANSPORTATION AND IMPROVING MARITIME DOMAIN AWARENESS AND RESPONSE 
                               CAPABILITY

=======================================================================


                                (113-72)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                            
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 21, 2014

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
        
    
                                   ______

                         U.S. GOVERNMENT PRINTING OFFICE 

89-781 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

    
        
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,          Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
MARK SANFORD, South Carolina
DAVID W. JOLLY, Florida
                                ------                                7

        Subcommittee on Coast Guard and Maritime Transportation

                  DUNCAN HUNTER, California, Chairman
DON YOUNG, Alaska                    JOHN GARAMENDI, California
HOWARD COBLE, North Carolina         ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        RICK LARSEN, Washington
PATRICK MEEHAN, Pennsylvania         TIMOTHY H. BISHOP, New York
STEVE SOUTHERLAND, II, Florida,      LOIS FRANKEL, Florida
  Vice Chair                         CORRINE BROWN, Florida
TOM RICE, South Carolina             JANICE HAHN, California
MARK SANFORD, South Carolina         NICK J. RAHALL, II, West Virginia
DAVID W. JOLLY, Florida                (Ex Officio)
BILL SHUSTER, Pennsylvania (Ex 
    Officio)
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Thomas W. Altshuler, Ph.D., vice president and group general 
  manager, Teledyne Marine Systems...............................     3
Charles Benton, chief executive officer, Technology Systems Inc..     3
Casey Moore, president, Sea-Bird Scientific......................     3
Dean Rosenberg, chief executive officer, PortVision, a division 
  of AIRSIS Inc..................................................     3
David M. Slayton, research fellow, Hoover Institution, Stanford 
  University, and cochair and executive director, Arctic Security 
  Initiative.....................................................     3
Eric J. Terrill, Ph.D., director, Coastal Observing Research and 
  Development Center, Scripps Institution of Oceanography, 
  University of California, San Diego............................     3

           PREPARED STATEMENT SUBMITTED BY MEMBER OF CONGRESS

Hon. John Garamendi, of California...............................    28

 PREPARED STATEMENTS AND ANSWERS TO QUESTIONS FOR THE RECORD SUBMITTED 
                              BY WITNESSES

Thomas W. Altshuler, Ph.D.:

    Prepared statement...........................................    29
    Answers to questions for the record from Hon. John Garamendi, 
      a Representative in Congress from the State of California..    30
Charles Benton, prepared statement...............................    39
Casey Moore:

    Prepared statement...........................................    41
    Answers to questions for the record from Hon. John Garamendi, 
      a Representative in Congress from the State of California..    47
Dean Rosenberg, prepared statement...............................    55
David M. Slayton:

    Prepared statement...........................................    57
    Answers to questions for the record from Hon. John Garamendi, 
      a Representative in Congress from the State of California..    76
Eric J. Terrill, Ph.D.:

    Prepared statement...........................................    88
    Answers to questions for the record from Hon. John Garamendi, 
      a Representative in Congress from the State of California..    98
      
      
[GRAPHIC] [TIFF OMITTED] 

 
      USING NEW OCEAN TECHNOLOGIES: PROMOTING EFFICIENT MARITIME 
  TRANSPORTATION AND IMPROVING MARITIME DOMAIN AWARENESS AND RESPONSE 
                               CAPABILITY

                              ----------                              


                        WEDNESDAY, MAY 21, 2014

                  House of Representatives,
          Subcommittee on Coast Guard and Maritime 
                                    Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:45 a.m. in 
Room 2253, Rayburn House Office Building, Hon. Duncan Hunter 
(Chairman of the subcommittee) presiding.
    Mr. Hunter. Good morning. I apologize for my tardiness. The 
subcommittee will come to order.
    Today we are meeting to discuss using new ocean 
technologies to promote efficient maritime transportation and 
improve maritime domain awareness and response capability. This 
is a followup to our previous hearings regarding maritime 
domain awareness last July, and one earlier this year 
recommended by Ranking Member Garamendi, on the future of the 
Federal Government's navigation programs.
    In addition, I held a roundtable in San Diego in February, 
and met with a variety of companies that are part of The 
Maritime Alliance. The Maritime Alliance represents over 1,400 
companies in the San Diego area that produce $14 billion in 
direct sales and sustain 46,000 jobs from traditional maritime 
industries to high-tech companies; 19,000 of those jobs are 
high-technology jobs.
    The Maritime Alliance has identified 14 distinct maritime 
technology clusters, such as ocean observation, ports and 
security, maritime robotics and large floating platforms. This 
is an area of the economy, particularly the high-technology 
maritime companies, that has been growing and provides cutting-
edge products around the world. The companies involved in this 
sector are also significant exporters.
    Today's hearing will highlight this sector of our economy, 
and we will learn how emerging technologies can be best used. 
We will also hear how we can improve the process for fielding 
new technologies in a more timely manner. Frankly, when it 
comes to that, the Coast Guard could use a lot of help, getting 
stuff probably within the first decade that it is created, and 
getting it into the Coast Guard.
    In addition, we will hear testimony on large floating 
platforms and their possible applications, specifically in 
locations such as the Arctic. I believe the Arctic represents--
and Mr. Garamendi does, as well--an opportunity for us to think 
outside the box on how we approach establishing a presence in 
the Arctic region, and what technologies can best be utilized 
in the Arctic.
    With that, I yield to Ranking Member Garamendi.
    Mr. Garamendi. Mr. Chairman, it's a pleasure working with 
you, and thank you very much for scheduling this hearing on new 
and emerging ocean technologies and their applications to 
advanced maritime transportation and ocean science research in 
the United States. This hearing is a perfect followup to our 
two previous technologically based hearings, and the meeting 
you had in southern California concerning the--and, 
respectively, the maritime domain awareness and the future of 
aids to navigation. I really am delighted with your interest in 
this area, I share that interest, and perhaps together we can 
advance this whole important arena.
    From my perspective, however, two questions are the most 
pertinent to ask. First, is the United States aggressively 
maintaining its competitive edge in both basic and applied 
ocean research? And, second, is the United States still the 
global leader in the development of new innovations in maritime 
technologies?
    The fact that I am even raising these questions should be 
alarming. Not too long ago, the United States was recognized as 
the uncontested world leader in scientific research and 
development, an edge that fueled the growth of our economy and 
led to unparalleled legacy of scientific achievement in the 
20th century. Now the situation is quite different. Over the 
past 30 years, Federal funding for basic ocean science and 
applied research has been reduced, and is insufficient when 
compared with the level of funding invested in ocean science 
and engineering by our competitors from around the world.
    Some critics have claimed, in fact, that we have entered a 
new world order in scientific research, including ocean science 
and engineering. In this new world order, the U.S. science will 
remain a leader. But other nations, especially China and India, 
will create an increasingly competitive environment, which will 
have serious ramifications on U.S. national security and 
economic strength further down the road.
    What does this mean? Does this mean that this--what does 
this mean about this morning's hearing? First, we need to 
understand how these evolving circumstances are changing the 
scientific paradigm that has guided ocean science research in 
the United States for many decades.
    We need to understand how the private sector and academic 
community are collaborating with Federal agencies, and we need 
to know how that collaboration can best be leveraged to advance 
the innovation in ocean science and engineering. The 
implications are huge for both our stature as a science leader, 
and our future as a global economic power.
    Mr. Chairman, thank you so much for calling the hearing. I 
look forward to the testimony of the witnesses.
    Mr. Hunter. I thank the ranking member. I'm going to try to 
introduce everybody with the right names here. And if I do mess 
up, just yell your last name out loud, the way it is supposed 
to be pronounced, please.
    Dr. Thomas Altshuler--is that correct? OK. Vice president 
and group general manager of Teledyne Marine Systems; Mr. Chuck 
Benton, CEO of Technology Systems Inc.; Mr. Casey Moore, 
president of Sea-Bird Scientific; Mr. Dean Rosenberg, CEO of 
PortVision--Dean, very good to see you again; Commander David 
Slayton, research fellow with Stanford University's Hoover 
Institution; and Dr. Eric Terrill, director of the Coastal 
Observing Research and Development Center, Marine Physical 
Laboratory, the Scripps Institution of Oceanography. And there 
we have it.
    So, Dr. Altshuler, you are recognized.

  TESTIMONY OF THOMAS W. ALTSHULER, PH.D., VICE PRESIDENT AND 
GROUP GENERAL MANAGER, TELEDYNE MARINE SYSTEMS; CHARLES BENTON, 
CHIEF EXECUTIVE OFFICER, TECHNOLOGY SYSTEMS INC.; CASEY MOORE, 
PRESIDENT, SEA-BIRD SCIENTIFIC; DEAN ROSENBERG, CHIEF EXECUTIVE 
   OFFICER, PORTVISION, A DIVISION OF AIRSIS INC.; DAVID M. 
    SLAYTON, RESEARCH FELLOW, HOOVER INSTITUTION, STANFORD 
UNIVERSITY, AND COCHAIR AND EXECUTIVE DIRECTOR, ARCTIC SECURITY 
   INITIATIVE; AND ERIC J. TERRILL, PH.D., DIRECTOR, COASTAL 
OBSERVING RESEARCH AND DEVELOPMENT CENTER, SCRIPPS INSTITUTION 
      OF OCEANOGRAPHY, UNIVERSITY OF CALIFORNIA, SAN DIEGO

    Mr. Altshuler. Thank you, Mr. Chairman and distinguished 
members of the committee. I want to make a couple of brief 
remarks that I think will highlight the points that were just 
raised by Congressman Garamendi about the ocean.
    So the ocean is one of the most exciting economic 
opportunities of the 21st century. The global reliance on ocean 
resources and the dependence on the marine environment will 
result in a continued growth in the so-called blue economy 
worldwide. The United States has a unique leadership position 
in many aspects of that economy right now. The U.S. is the 
single biggest market, and is a clear frontrunner in advance 
technology, and has established a role as a thought leader.
    With all of these advantages, the immense growth potential 
of the marine market, the blue economy is likely to provide the 
U.S. businesses a strong return over the next decade, through 
both the domestic market and, more importantly, the 
international markets. This robust market will continue 
technology advancement that can be leveraged by everything from 
advanced ocean sciences to improving the efficiency and safety 
of Marine Transportation Systems.
    As a business leader of one of the group of companies 
called Teledyne Marine Systems, I have had the privilege of 
working in this portion of the marine segment of Teledyne 
Technologies for almost 6 years. Teledyne recognizes the huge 
potential of this market over a decade ago, and has 
systematically grown its presence in the marine market.
    Currently, Teledyne Marine is a growing group of 13 
established, well-reputed undersea technology companies whose 
collective size has expanded from $6 million in 2000 to over 
$600 million in 2013, with approximately half of the revenue 
resulting from international sales of our product. These 
companies have developed and introduced some of the most 
innovative technologies and products that have revolutionized 
the diverse marine markets, from offshore to inshore, and 
oceanographic to defense.
    Teledyne Marine has achieved this growth through a 
combination of acquisitions, of technology-leading companies, 
and organic growth of those companies. This collective approach 
has resulted in strong, high-tech job growth, with direct and 
substantial impact on our local communities. Employing 2,000 
people, our marine companies provide high-tech jobs nationwide, 
from Cape Cod, where I live, to San Diego, Seattle to Daytona 
Beach, and New Hampshire to the gulf coast.
    Our product portfolio spans a wide range of capabilities, 
and that is one of the reasons that I think today will be very 
exciting for me. We provide undersea technologies, including 
unmanned vehicles, measurement systems, imaging and survey 
systems, underwater communication systems, and underwater 
connectors. The benefits gained with the associated high-
performance, highly reliable products that we offer have ranged 
from new scientific discoveries to operational efficiencies in 
very harsh environments.
    As Teledyne Marine looks to the future, we see exciting 
opportunity growths. Ours and our market peers' current 
technologies and technologies under development will 
revolutionize how we understand and leverage the ocean. In the 
oceanographic arena, which is core to our understanding of the 
marine environment, the United States has a clear leadership 
position.
    Through programs such as the integrated oceanographic 
observing system, IOOS, led by NOAA, the regional partnerships 
between Federal and State governments, academic institutions, 
and the private sector, have resulted in a leap-ahead 
understanding of coastal marine environments. Its influences on 
fisheries and local economies in the United States, and even 
weather forecasting, is significant. These regional 
partnerships facilitated by IOOS are viewed worldwide as a 
highly successful example of how to effectively leverage human 
talent and resources for coastal marine studies, and have 
resulted in a growing export of marine technologies to the 
international community and driven advanced technology research 
and development. Other key Federal programs, such as the Ocean 
Observatories Initiative, have done the same.
    As the oceanographic market grows, so does the defense and 
security in offshore arenas. Both fund the development and 
exploitation of corporate internal research and development 
will ensure that companies like Teledyne Marine and our peers 
can provide the most advanced technology into the worldwide 
blue economy. With the existing and emerging technologies, both 
the domestic and international markets will provide long-term 
manufacturing job growth for our U.S.-based businesses.
    As we compete with foreign-developed technology, our 
technology advantage can be short-lived, and that is a big 
risk. What is needed is to facilitate export of our product to 
the key--is a key to sustaining positive economic impact for 
this blue economy in the United States, and will provide 
affordable technology for broad marine applications throughout 
the United States.
    Overall, because of the partnership across Federal and 
State governments, academic and nonprofit organizations, the 
blue economy is an outstanding opportunity for the U.S.
    Mr. Garamendi. Ended right at 5 minutes.
    Mr. Hunter. Very good. Thank you.
    Mr. Benton?
    Mr. Benton. Chairman Hunter and distinguished members of 
the committee, thank you for the opportunity to appear before 
you to testify on the subject of small vessel safety and 
security at this important hearing. I appreciate and welcome 
the committee's continued focus on this subject.
    Vessel tracking enables collision avoidance, makes more 
efficient use of our waterways possible, and enhances maritime 
security and response. The automatic identification system 
developed in the 1970s is the primary vessel tracking 
capability for large ships. This capability has been extremely 
successful and it is used in a broad range of operational 
settings. However, the reality is that the cost and 
infrastructure of AIS result in less than 1 percent of all 
vessels using it.
    There is a long-identified need to better support small 
vessel operations through enhanced identification and tracking 
capabilities. In 2010, the Department of Homeland Security 
issued a small vessel security strategy that outlines many 
issues relating to this. In 2010, the DHS S&T Directorate, 
Borders and Maritime Division issued a small business 
innovation research program topic looking for innovative new 
small vessel identification and tracking technologies.
    My company responded with a proposal titled, ``Smart Chart 
AIS,'' and set forth the concept that, since virtually all 
small vessel operators also had smart phones, a surrogate AIS 
capability could be developed that took advantage of these 
already-present systems. This resulted in development of the 
Smart Chart AIS app that is distributed for free to the public. 
Features in Smart Chart AIS include NOAA charts, weather radar, 
cruising guide information, social network functionality, 
augmented reality capability, and, most importantly, surrogate 
AIS capability for small vessels, referred to as AIS-i.
    AIS-i is a new protocol we developed for use over the 
wireless Internet. We are putting this protocol into the open 
domain, and have engineered it so that any company can 
integrate the protocols into their equipment. The intent is to 
enable all small vessels to use AIS for free or at very low 
cost.
    The recent conference was convened at the California 
Maritime Academy titled, ``E-navigation Underway.'' E-
navigation is defined as the harmonized collection, 
integration, exchange, presentation, and analysis of maritime--
of marine information onboard and ashore by electronic means to 
enhance berth-to-berth navigation, and related services for 
safety and security at sea and protection of the marine 
environment. I presented a paper titled, ``AIS-i: Supporting 
the Recreational Boating Community Over Wireless Internet,'' 
which was enthusiastically received. Attendees included senior 
Government and industry personnel from around the world.
    This led to an invitation to an invitation by the Radio 
Technical Commission for Maritime Services, for RTCM, for me to 
make a presentation at their annual technical meeting. RTCM is 
an international body that creates standards in documentation 
that are referenced by the International Electronics 
Commission, and the U.N.'s International Maritime Organization, 
in establishing and sometimes mandating performance standards.
    An outcome of the meeting was a unanimous committee vote to 
have two special committees evaluate and report on having AIS 
formally reviewed and incorporated into the international 
standards process. This is the first step in a process leading 
to AIS-i protocols being adopted on a global basis.
    The protocols and service that have emerged from this 
project are gaining national and international recognition as 
an appropriate and clearly needed solution that will enhance 
maritime safety and security. The project is rapidly 
transitioning from an R&D phase to a transitional phase, in 
which standards will be finalized and formally adopted. 
Continued support for these efforts will ensure that homeland 
security interests are addressed, and that the U.S. will 
provide the leadership needed to enhance the safety and 
security of the 99 percent of the maritime community that small 
vessels represent.
    Thank you again for your interest and focus on this 
important subject.
    Mr. Hunter. Mr. Moore, you are recognized.
    Mr. Moore. Chairman Hunter, I wish to thank you, Ranking 
Member Garamendi, and all the members of the committee for 
allowing me to participate in this hearing. I am Casey Moore, 
president of Sea-Bird Scientific. I am here today. I represent 
the over-200 scientists, engineers, and other associates that 
comprise our company.
    Sea-Bird Scientific develops and manufactures oceanographic 
sensors. Our products measure physical, biological, and 
chemical properties throughout the ocean. Examples include 
temperature, salinity, nutrient concentrations, and ocean pH. 
They play an increasingly important role in ocean observing.
    Ocean observations are not a new concept in supporting 
maritime operations and response. For example, sea-state 
parameters such as wave height and tides have been used by the 
Coast Guard and maritime industry for years. What are new are 
the technologies, advancements, and sensors, platforms, and 
communications that allow for detailed ocean monitoring within 
the water column from shore and from space. Networked together, 
these tools are changing the game.
    Over the past decade in the U.S., there have been efforts 
initiated to implement this network on a national scale. Local 
and regional ocean-observing systems teaming with Federal 
agencies, academic researchers, and public stakeholders work to 
begin forming an integrated ocean observing system, or IOOS. 
IOOS serves an increasingly important role in managing the 
observing infrastructure.
    This infrastructure, still nascent in terms of maturity, 
results largely from public investment. I contend today that we 
need to invest more. I know this is not a popular notion, in 
light of our continuing budget deficits, but I hold the 
conviction that it is in our country's economic, social, and 
strategic interests to fully develop this network.
    As just one example of modern ocean observing at work, I 
will touch upon an event that is still fresh in our minds. In 
late 2012, Hurricane Sandy exacted heavy damage on the eastern 
seaboard of the U.S. Less publicized was the fact that 
significant damages and possible loss of life were averted 
through the use of regional IOOS assets.
    A summary supplied by the Marine Technology Society to 
NOAA's National Ocean Service indicated that IOOS buoys and 
moorings enabled far more focused preparation and response. 
Observation and forecasting information resulted in a diversion 
of commercial container and Navy ships out of the storm's reach 
for a savings of $6 billion to $7 billion. They also prompted 
evacuation of over 30,000 people living on first floors and in 
basements in Hoboken, New Jersey, before the storm surge 
completely inundated the city.
    While these events in many ways validated the utility for 
ocean monitoring, they belie an important point: We could have 
done better. Current observing capabilities along the east 
coast are only a fraction of those envisioned by IOOS planners. 
Denser sampling would have further reduced risk and uncertainty 
and preparation and response.
    As one specific example, higher spacial resolution vertical 
sampling of ocean temperature would have provided greater 
accuracy in determining the storm's intensity at landfall. This 
could have saved millions in preparation and better enabled 
response efforts.
    A fully capable ocean observing network requires 
substantial investment. Independent studies provided to IOOS 
show that costs for a full build-out and operation of a 
national observing network will exceed $3 billion annually. 
This is a large number, but it is important to remember that 
approximately 45 percent of our country's GDP is now 
concentrated in the coastal regions. Economic and human impacts 
of ocean events and our need to effectively regulate and 
respond will only increase.
    One common model we use in describing the future of ocean 
observing is that we see networks and systems eventually 
growing into an analog of the national weather network. This 
analogy is apt. Effective monitoring of the ocean extends our 
ability to--excuse me--greater acuity and understanding long-
term weather patterns. It also reduces uncertainty in near-term 
events.
    With greater forecasts and real-time understanding, we can 
better manage resources to mitigate and respond, as opposed to 
simply falling victim to changing conditions. This will not 
only benefit the fisher in Oregon, but also the farmer in 
Kansas.
    I once again wish to thank the committee for the 
opportunity to provide testimony in this important matter.
    Mr. Hunter. Thanks, Mr. Moore.
    Mr. Rosenberg?
    Mr. Rosenberg. Thank you, Chairman Hunter, Ranking Member 
Garamendi. My name is Dean Rosenberg, and I am the CEO of 
AIRSIS, a software technology company focused on the energy and 
transportation industries. Our PortVision division provides 
patented tools and technologies to increase maritime domain 
awareness and improve safety, security, and efficiency in the 
maritime industry.
    PortVision maintains a global network of VHF receivers that 
detect collision avoidance signals, also known as automatic 
identification system, or AIS, transmitted by vessels around 
the world. As many of you know, AIS transponder use by vessels 
larger than 65 feet has been mandated by the Coast Guard since 
2005. Its original purpose was collision avoidance at sea.
    However, shortly after AIS went into widespread use, we 
realized that the same data used aboard vessels could also 
provide significant value to shoreside personnel who needed to 
solve business problems. So, in 2006, PortVision was born, 
leveraging federally mandated technology, and repurposing it to 
drive additional benefits across the maritime industry.
    Now, in 2014, our PortVision AIS network processes over 50 
million real-time vessel position reports each day, and we 
store over 40 billion arrival, departure, and individual vessel 
movements. To put this another way, during every second of my 
testimony today, PortVision is processing another 500 real-time 
vessel positions from around the world. Our customers use this 
data to improve many types of operations, whether it be 
scheduling of vessels at an oil refinery, supporting an 
incident response operation, or supporting homeland security 
and law enforcement activities. There are over 3,000 PortVision 
users leveraging AIS for these and other valuable purposes, 
including vessel operators, marine terminals, Government 
agencies, and every major oil company.
    You can think of our network as a commercial version of the 
Coast Guard's nationwide AIS initiative. However, while NAIS is 
focused primarily on aggregating AIS data around the U.S. and 
its territories, we have extended our network globally. 
Additionally, the NAIS initiative is focused on AIS data 
acquisition for use in VTS and related operational 
environments, whereas PortVision is focused on analysis and 
harvesting of that data to drive business intelligence in the 
maritime domain. Our observation is that current Government 
systems appear to be good at collecting and displaying real-
time data, but not necessarily in aggregating and making it 
broadly accessible to field personnel, who must clearly 
understand waterway utilization in order to carry out their 
mission objectives.
    AIS continues to grow in value. We participate in maritime 
industry groups around the country that rely on our data and 
expertise, and we are regularly called upon to provide data and 
testimony associated with key incidents, such as the Deepwater 
Horizon oil spill, major hurricane and weather events, and 
numerous compliance and law enforcement activities.
    AIS is also helping the maritime industry accommodate a new 
surge of Gulf traffic, including vessels transporting crude oil 
shipments from new finds in the Dakotas, west Texas, and other 
locations. We are a key enabler in this new and evolving 
chapter in our Nation's energy evolution.
    Another promising development is the use of AIS in 
pipeline, bridge, and offshore asset protection. PortVision 
partnered with CAMO, an industry trade association of coastal 
and marine operators, on a system that proactively notified 
vessels and pipeline operators when there is imminent risk that 
a vessel might damage pipeline infrastructure. Over the last 
two decades, there has been over $100 million in property 
damage, and over 25 fatalities associated with coastal and 
marine pipeline incidents. Our project with CAMO has received 
Coast Guard approval, and FCC approval is pending.
    Still another application is identifying bad actors and 
driving regulatory compliance. For example, PortVision has 
partnered with the Offshore Marine Service Association to 
identify and report Jones Act violators, while individual port 
authorities use PortVision to enforce speed reduction 
initiatives. Other Government customers use PortVision data and 
services to support homeland security and intelligence 
operations. These value-added benefits are only possible if 
carriers transmit a persistent signal with accurate data.
    We know of no uniform enforcement by the U.S. Coast Guard 
to ensure that carriers comply. Some VTS regions are very 
vigilant about compliance, while other regions have less active 
oversight. I urge the subcommittee to ensure that all vessels 
required to transmit AIS maintain a consistent, uninterrupted, 
and accurate AIS transmission, to ensure that these valuable 
AIS technology initiatives can continue.
    Finally, I seek the subcommittee's support in encouraging 
Federal agencies to look to commercial sector and small 
business to help execute their maritime domain awareness 
initiatives. Companies like ours provide proven valuable 
services at very low cost. However, commercial offerings like 
PortVision are often overlooked in favor of reinventing the 
wheel through Government-funded build-versus-buy initiatives. 
This not-invented-here culture can put up barriers to 
Government adoption of proven and widely deployed commercial 
technology. It also prevents many Coast Guard and other 
Government field personnel from operating as effectively as 
industry partners who have access to these tools.
    Thank you again for the opportunity to share our story. We 
believe that blue economy companies like PortVision are key 
enablers of enhanced maritime domain awareness, and increase 
safety, security, and efficiency across the Marine 
Transportation System. I look forward to your feedback, and 
happy to answer any questions.
    Mr. Hunter. Thanks, Mr. Rosenberg.
    Commander Slayton, you have an interesting bio. You have 
been in the Arctic since you were 17--13----
    Mr. Slayton. I was 13, and joined the Navy when I was 17, 
and have probably spent about 3 years, total, operational time 
in the High North, between all the Arctic nations.
    Mr. Hunter. It is all yours.
    Mr. Slayton. Save Russia.
    Mr. Hunter. Right.
    Mr. Slayton. Chairman Hunter, Ranking Member Garamendi, and 
members of the committee, thank you for the opportunity to 
appear before you today. It is indeed an honor and a privilege 
to talk to the committee about the creation of new and emerging 
ocean technologies, how facilitating their development would 
expand maritime entrepreneurship, job development, and 
commerce, and further our understanding of the ocean 
environment in support of vital U.S. interests in the maritime 
domain.
    Additionally, I am glad to discuss what we at the Hoover 
Institution and the Arctic Security Initiative view as 
impediments, barriers, and factors that limit or constrain the 
creation and use of such technologies and their applications. 
These technologies we discuss today will become increasingly 
important as we witness the convergence of climate change and 
national security challenges, a convergence clearly recognized 
in the High North and other regions around the world, and ably 
identified within the 2014 Quadrennial Defense Review, the 
National Climate Assessment, the Intergovernmental Panel on 
Climate Change, and, most recently, in the Center for Naval 
Analyses' Military Advisory Board report.
    As recent events in Russia highlight, coupled with the 
effects of climate change, the Arctic has re-emerged as a 
significant strategic territory: in part due to the region's 
abundant energy, mineral, and natural resources, and in part 
due to increased maritime access to the area. That being said, 
we in the United States need to be prepared, at a minimum, with 
greater Coast Guard and Navy presence, monitoring capability, 
and infrastructure capacity. Presently, we are not prepared, 
and we are far from being ready.
    In this context, when we evaluate maritime security 
requirements, the U.S. and other Arctic nations require the 
capacity and capability to support, respond, and react to the 
events that are taking place now. Moreover, as we have said, 
security is also about safety, adequate naval response, 
environmental, humanitarian assistance disaster relief, and 
commercial accidents that might take place in the High North. 
And it is there that our Coast Guard is going to be on the 
front lines that--anything that happens in the Arctic.
    Last year, the Navy, Coast Guard, DOD, and the President 
all released policy documents on the Arctic. All the policies 
called for new technology capabilities, infrastructure 
capacity. The documents, together, make up the nascent U.S. 
Arctic strategy--however, unfunded.
    Then, in January of this year, President Obama released the 
U.S. implementation plan for national strategy for the Arctic 
region. The plan is an integrated Arctic management process 
with a clear objective to engage with the State of Alaska, 
Alaska Natives, and key stakeholders and actors from industry, 
academia, and nongovernmental organizations.
    For the maritime domain, the plan presents a 10-year 
horizon that will be used to prioritize Federal infrastructure 
in the U.S. maritime Arctic. It is not surprising that within 
the section of the maritime domain the plan calls for 
recommendation for Federal public-private partnerships, a 
recent subject of this subcommittee to support the prioritized 
marine infrastructure elements that are to be developed in 
Federal projects. This may prove to be an early indication 
that, without investment partnerships with the private sector, 
new initiatives such as maritime-centered economic development 
may be constrained or limited by the Federal budget process.
    Closely aligned with the subject of this hearing, the plan 
recognizes a number of key requirements that relate to the 
changing U.S. maritime Arctic and its future. Included are 
major technology initiatives on developing telecommunications 
services; enhancing maritime domain awareness; sustaining 
Federal capacity to conduct maritime operations in ice-covered 
waters--rated as icebreakers in a capacity to break ice; 
increasing charting in the region; and improved geospatial 
referencing; oil and other hazardous material spill prevention, 
containment, and response in supporting the circumpolar Arctic 
observing system.
    This is just a subset of the many tasks presented in the 
plan. However, it is clear--very clear--that the maritime 
domain requires special and timely attention, using integrated 
approaches that can respond to a broad array of national 
security challenges.
    In closing, while the issues are many and not without 
challenge, the maritime industry and the maritime 
entrepreneurial centers of this Nation afford great 
opportunities. Now is the time to approach our maritime and our 
Arctic interests and responsibilities urgently and with 
national strategic priority.
    Thank you again, Mr. Chairman, Congressman Garamendi, and 
the members of the committee, for the privilege of appearing 
before you. I look forward to the remainder of the hearing, and 
I look forward to answering your questions.
    Mr. Hunter. Thanks, Commander. We actually figured out what 
the Navy and Coast Guard's plan was for icebreaking. It is to 
wait until it melts, and then we won't need one any more. 
Right?
    It is a joke. Come on, it is a joke.
    [Laughter.]
    Dr. Terrill, you are recognized.
    Mr. Terrill. I would like to start first by thanking 
Congress and the Federal agencies in their ongoing support of 
ocean technology development and sustained observations of our 
oceans, as this investment has made the U.S. a leader in the 
development, manufacture, and applications of ocean technology.
    This investment not only allows U.S. companies to compete 
successfully in the global economy, but the investment in ocean 
science and technology creates jobs and strengthens and 
supports U.S. national security. And, for better or worse, I am 
actually a product of this investment, and I have spent the 
better part of my career in a close relationship with this 
ocean technology, ocean research, and Federal agencies, whose 
missions depend on timely and accurate data.
    For maritime domain awareness to be responsive to emerging 
needs, the U.S. Government needs to consider partnering 
internally across agencies and externally to industry and the 
research community. In the present economy, this leveraging 
can't be understated. In addition, we need to consider better 
approaches to procurement programs that serve national MDA 
needs, as all too often new technology and concepts of 
operations sink before they can even take off, because their 
price tags are too high.
    One existing framework that we have heard earlier about 
this morning is the Integrated Ocean Observing System. This was 
initiated only 14 years ago as an interagency planning effort, 
and already has a formal program office at NOAA and 11 regional 
associations that are collecting observations and serving them 
up to a diverse stakeholder community.
    And, coincidentally, the Integrated Coastal and Ocean 
Observation Act of 2009 needs to be reauthorized.
    IOOS has many successes, including providing on-scene 
environmental information in many extreme events that the 
country has faced, including Hurricanes Katrina and Sandy, the 
Cosco Busan oil spill in San Francisco, and the Deepwater 
Horizon oil spill in the Gulf of Mexico, to name just a few. In 
all these cases, IOOS has acted as a decision support system, 
and the observations provided many of the behind-the-scenes 
data that was used by local, State, and Federal responders.
    Ocean technology that is the foundation of this IOOS system 
is a network of high-frequency radar systems that provides 24/7 
maps of ocean currents around the coast of the U.S. Data are 
used to support oil spill response, search and rescue, water 
quality tracking, fisheries management, and marine protected 
areas, and it is one example of how the U.S. Coast Guard and 
other Federal agencies rely upon NOAA through MOUs to provide 
operational ocean data. It involves 31 organizations 
maintaining 133 radars now, and my group at Scripps was 
intimately involved in the design of that data management 
system that is functioning now at the National Data Buoy 
Center.
    One exciting next step for the technology is to apply it 
for ship-tracking applications. And just recently there were 
some tests in the Philippines by U.S. Pacific Command, Office 
of Naval Research, Scripps, and the radar manufacturer to 
demonstrate this capability, and this builds off of earlier 
Department of Homeland Security-funded research efforts.
    However, the opportunity for the U.S. to transition the 
U.S. HF Radar National Network to having this capability will 
remain elusive because, right now, the national network is 
funded at $5 million a year, which is half of the $10 million a 
year required to reach 100 percent capacity. And the program 
budget for this effort has remained flat in NOAA since 
receiving its own funding line 3 years ago.
    Another example of potential partnership and transition for 
coastal MDA needs is the repurposing of land surveillance 
equipment returning home from Afghanistan. With the war drawing 
down, opportunities exist for repurposing the investments and 
surveillance aerostats and towers equipped with X-band radar 
and cameras. These systems were originally developed to provide 
force protection of forward-operating bases. In the same suite 
of sensors, a networked architecture, with some modifications, 
are well suited to providing this type of capability in a 
maritime environment for providing detection of offshore 
vessels, illegal fishing, and providing port and harbor 
security.
    Maritime evaluations of these technologies are timely and 
currently pursued on a pilot level by the NAVAIR, Naval Air 
Systems Command, and Office of Naval Research. And this summer, 
two systems will be deployed overseas as part of a 
demonstration effort with PACOM. So I would encourage looking 
at how other technologies and working with the defense research 
enterprise can be capitalized within partnerships with the U.S. 
Coast R&D center, because I think they would be low-cost and 
provide a high return on investment.
    The Arctic also presents another set of challenges that we 
have heard about. Ocean technology is going to be required to 
provide the kinds of observations necessary to understand the 
oceanographic and ice conditions that will exist up there. 
Right now we don't have those technologies in place, and the 
environment is highly undersampled. So partnerships developed 
with the Navy, NOAA, National Science Foundation, DARPA, and 
U.S. research organizations should be considered to leverage 
the respective investments of those groups.
    So, to close, I encourage partnerships across agencies, 
fund pilot demonstrations that involve the research enterprise 
and industry, and let's build U.S. MDA capabilities from our 
existing modern-day successes. Thank you.
    Mr. Hunter. Thanks, Doctor. I am now going to recognize 
Members, starting with myself.
    Let me just say, first, it is great to have everybody here. 
You know, we can't force Government agencies, no matter who 
they are, to adopt any kind of technology, right? But what we 
can do is make sure that they are not recreating what you are 
already doing inside the Government bureaucracy for 10 times as 
much as you are doing it for.
    But that is what we can do, and that is one thing we are 
going to basically look at after this, to see all the stuff 
that is out there, what is going on, and make sure that they 
are not trying to recreate the wheel, especially if the 
technology already exists.
    So, to start, Mr. Rosenberg, let me ask you to, if you 
would, demonstrate this. And, two, if you could, talk to how 
this is different than any other kind of common picture 
operating system that the Government uses, or AIS. What is 
different about this and separates it out? If you could, talk 
to that as you demonstrate.
    Mr. Rosenberg. Yes. So, PortVision--so if you look at the 
NAIS initiative, it is really focused on the aggregation of 
data, of the aggregation of AIS data. What we are trying to do 
is make business sense of that data. So, if you look on the 
monitor, we are looking at the live version of L.A. and Long 
Beach right now. And I have highlighted the MSC Luciana. What 
we are doing is not only showing kind of the traditional points 
on a map common operating picture, but we are also providing 
additional sort of maritime business intelligence.
    So, in the events list we see when this particular vessel 
departed the Shengdong container terminal in China, when she 
arrived at San Francisco, and when she ultimately arrived at 
the Hanjin terminal in Long Beach. So we are really trying to 
solve sort of business problems, or have a more thorough 
understanding of what is going on.
    And then, we take that further to actually getting into the 
reporting aspect. So I have brought up that TTI Hanjin terminal 
in Long Beach, and I am now showing very detailed information 
about every vessel arrival, the type of arrival, the draft 
before and after, which implies loading or unloading, where 
that vessel came from, and what its next destination is.
    Most of the Coast Guard and Government systems don't get to 
this level of MDA-type understanding. They typically are more 
focused on sort of the real-time points on a map, and seeing 
where a vessel is right now.
    Mr. Hunter. So how does this help you solve----
    Mr. Rosenberg. So, what we found is--you know, my 
contention is, today, you know, today, on Wednesday, there are 
dozens, if not hundreds, of field personnel and Coast Guard and 
Government agencies in the U.S. that need information about 
current real-time and historical data. They don't have it, but 
their industry partners do. You know, some other personnel need 
information to look at compliance activities or law enforcement 
or litigation activities. They don't have it, but their 
industry partners do.
    And we have lots of sort of anecdotal stories around Coast 
Guard and Government personnel calling on industry partners to 
get the data. Because, at the field level, at the field 
personnel level, they don't have access to these systems. In 
the VTS office, in the headquarters, in the command center, 
they have access to all sorts of common operating picture 
technology. But at the field level, where people are actually 
doing their jobs deployed, they don't have that information.
    So, I mean, our technology, other technologies like ours, 
are Web-based, they are PDA-based, they are smart phone--it is 
pretty easy, certainly.
    Mr. Hunter. I have a question, kind of a general question 
for everybody. When it comes to hiring people--this probably is 
outside of the software world--but in the actual blue 
technology manufacturing part, or R&D, where do you hire from? 
What ages do you hire? How hard is it to get people that know 
what they are doing with their hands and making stuff? Or do 
you find it difficult, or is it not difficult? Do you have 
plenty of folks out there to hire? Anybody? Everybody.
    Mr. Altshuler. I will start with that. We actually find 
hiring very difficult. So we want highly skilled technicians. 
We need very good engineering skills. The ocean is an 
incredibly complex environment. There are limited numbers of 
ocean engineering programs, and those programs are probably 
underfunded, from a standpoint of the research and development 
in grants they get. So it is a slow, organic growth of that 
skill set.
    When you look at the economy, the blue economy, it is going 
very quickly. So it is definitely underrepresented, from a 
standpoint of what we can bring in, as personnel. And I would 
guess--I would like to hear what other people see. But offline, 
many of the gentlemen here I have talked to in the past, and 
they would say the same thing, I would think. So----
    Mr. Moore. It is a challenging environment to hire in the 
Northwest, because we find ourselves competing with industries 
such as Microsoft in the Seattle area for capable engineers, 
industries such as Boeing. On the other hand, we don't expect 
or--we don't expect the level of turnover. So when we do hire, 
we invest in individuals, and it is usually a long-term 
venture. So there is very little turnover in our business with 
professionals, and it tends to work out in the long run.
    Mr. Slayton. I will take a stab at this one, as well. Yes, 
I admire the tenacity and the entrepreneurship of the gentlemen 
that sit to my left. And being up in the Bay Area, we are a 
stone's throw away from Sand Hill Road, one of the largest 
concentrations of venture capitalists in the United States. 
Also, sitting on the campus at Stanford University and having 
other great universities like UC Berkeley, Santa Clara, San 
Jose State nearby, we have the opportunity here about the 
challenges and the barriers to starting these ventures, first 
and foremost.
    Going to sea inherently is already a dangerous situation. 
And to try to lure and entice investment in that area is 
challenged by who is going to underwrite these areas. Again, 
the folks that are going to be hired that we put out to sea 
likewise have a reasonable expectation that they are going to 
receive and be compensated in that way.
    So, again, I understand and fully realize the challenges 
that these gentlemen face to find a capable workforce on top of 
trying to fund their initial enterprises, going forward.
    Mr. Terrill. I would like an opportunity to----
    Mr. Hunter. Go ahead, sure.
    Mr. Terrill [continuing]. Address a little of this, as 
well. As a federally funded--primarily federally funded 
research organization in La Jolla, obviously, the cost of 
living is pretty high for young, entry-level technical staff to 
be joining us and living locally. But we are able to tap into 
the nearby universities, 20,000 strong, a lot of engineering 
students, physics students.
    And, as others have mentioned, a lot of technical staff, it 
takes them about 10 years before they are really useful and 
independent, because it is such a cross-discipline field that 
we are working in. We need engineers and technical staff that 
don't get seasick, know their way around, how to turn a wrench, 
but also are technically competent at the cutting edge of new 
technology, whether it is electrical engineering, or mechanical 
engineering, or the sciences.
    And so, we do have retention issues, but what we have found 
is, through internships and through tapping into the local 
universities, we are able to hire in employees. In fact, a lot 
of our employees, after they have been with Scripps for a 
number of years, they often are highly sought-after by industry 
because they have that real-world experience of their butts on 
the line to make equipment work, and they are sought after by 
industry to do the same for them.
    Mr. Hunter. Last question here in the last minute. What do 
you all see is the next step in the next 20 years? Like, when 
is the next--what is the jump going to be to when it comes to 
maritime technology and science? Is it in the mapping arena? Is 
it in the exploration arena? Just curious. Where do you see 
things going in the next quarter century?
    Anybody. Yes, please.
    Mr. Benton. I think e-navigation is going to have a huge 
impact. Essentially, the world is becoming networked, and that 
is happening in the maritime environment. There are initiatives 
in Europe and elsewhere globally to move that forward. And I 
think the U.S. is a little bit behind the curve in 
participating in what ultimately is going to be an architecture 
that is open, that anybody can both contribute information to 
and get information from.
    So, I think it is important that funding and just Federal 
focus be given to that, more than it is today.
    Mr. Altshuler. I would add to that. The--you know, on the 
networking thing, I think we have just talked about networks 
that are above the water. But probably the growth of sub-sea 
underwater networking is going to change how we do ocean 
observation, how we do security, port security, deepwater 
military operations, blue water operations. We have seen a 
little bit in the last few years of these observatories. They 
are relatively simple networking systems.
    You know, as we go to independent systems that are--use 
acoustic communications, that use optical communications, what 
you will see is the ability to distribute data, to distribute 
sensing, and exiltrate that information back to the resources 
that need that. And, as I said, that can be science, and that 
can be national defense.
    So, we are investing heavily in that area. We think that 
that is a huge growth market. And we see the rest of the world, 
and specifically China, very interested in that type of 
technology.
    Mr. Moore. I presented in my discussion the concept of 
moving to a paradigm similar to the national weather network. I 
think that is apt for reasons mentioned.
    But I also want to consider it or wish you to consider it 
in terms of how the national weather network is now used, and 
how little idea we had in--50 years ago as to how it would 
weave itself into our social fabric so deeply. I think that 
that same basic truth holds as we expand and develop these 
ocean monitoring technologies, both within and through remote 
sensing capabilities, and bring these networks together.
    Mr. Rosenberg. Yes, I think on the AIS front it is really 
going to be around industry collaboration. I mean AIS was 
really just legislated for collision avoidance, but then 
industry ran with it and came up with all of these other 
benefits. And so, we see transmission of AIS signals being able 
to automate a lot of the activities that are now done by a 
radio, or that are now done many days in advance.
    Mr. Slayton. I will build on the comment that was made 
earlier about the blue economy growing. And it is growing 
because we have just added another ocean to the planet. The 
Arctic is opening up. There is a huge need for hard 
infrastructure, deepwater ports, and associated infrastructure 
that goes along with that, as well as the networking that is 
going to be required to bring folks together in the High North. 
Once you get above about 65, 70 north, it becomes very 
challenging to communicate, particularly at the level that we 
are used to, here in the mid-latitudes, in the bandwidth that 
is required.
    Mr. Terrill. One revolution I see us going in the next 20 
years is the reliance on unmanned systems. Just as we are 
seeing in the aerial domain, underwater unmanned systems, 
surface unmanned systems on the ocean surface are really 
revolutionizing the way we do ocean science right now. We are 
sampling the earth, earth's ocean, at a resolution that is 
unheralded to date. Right now there is over 1,500 profiling 
floats that sink down to 2,000 meters and surface every 10 days 
to give us a sense of how much ocean heat is present in the 
earth's ocean.
    Another revolution I see is the ability to do very precise 
forecasting. So, just as we have precision agriculture that is 
doing very high-resolution agriculture, we are going to see 
that with weather and in the ocean world. That sort of level of 
precision will be surfacing that we can take advantage of, and 
that will be able to take advantage of all the tools to be able 
to exploit these unmanned sensors that are going to be 
deployed.
    Mr. Hunter. Thank you all. Mr. Garamendi, our ranking 
member, is recognized.
    Mr. Garamendi. For all of you, thank you so very much for 
fascinating and extremely important testimony. One hardly knows 
where to start, as we cover the total spectrum of what you have 
put before.
    I think what I would like to do is to go back to a couple 
of questions that were raised a moment ago and push them 
forward, about the personnel side of this, and the research 
side of it.
    There is a markup going on very soon in the Space and 
Technology Committee that is going to reauthorize much of the 
underlying authority for research. Don't know if any of you 
gentlemen have been following that. There are some concerns 
that exist about that potential markup, particularly the level 
of funding available for the social science part of it. I was 
just thinking about how we would have been better prepared for 
the Iraq War if somebody had thought about the social science 
piece of that war.
    There is that, and there is the overall funding issues. 
And, back to the educational piece, which I think two of you 
gentlemen are specifically involved in, or at least nearby, and 
the rest of you are dependent upon.
    So, let's talk about the research budget, the legislation 
that is going on around here, the reauthorization of that, if 
you followed it, how you see that coming together. And then, on 
the--how that research also--the research budget ties in with 
the education and the future employees of the private sector, 
as well as the public sector side of it.
    So, let's start, I don't know, left to right. But we will 
start with Scripps and move down the line here, quickly.
    Mr. Terrill. Well, thank you. Certainly one of the things 
the country depends on is continuity and steadiness of research 
funding, so that that continuity of civilian workforce, being 
at the cutting edge of developing new tools and capabilities, 
can transition to the industry and the Government. It wouldn't 
be there if we didn't have that continuity. So I would support 
you on that, that we need to have that in place.
    I am not familiar with the specific markups that you are 
referencing, but we definitely need to keep that research 
budget healthy.
    Mr. Slayton. Likewise, I agree with what Dr. Terrill--
again, being based at the university, and seeing the amount of 
dollars that flow in from the National Science Foundation and a 
number of different grants that support some of the things we 
mentioned today, particularly the underwater vehicles, the 
expanded network capability, and the deeper research that is 
going to be required, particularly in the oceans, I think it 
has been mentioned on more than one occasion we know more about 
the moon than we know about parts of the ocean.
    Again, I will go back to the area that I am involved in 
right now. Currently, only 10 percent of the floor of the 
Arctic is mapped. And at current projections, it is going to 
take another 70 or 80 years to complete that job for our Navy 
and Coast Guard and our professional mariners, going forward.
    Mr. Garamendi. Let me stop there for a quick second. How 
does your organization work with the U.S. Navy on this question 
of the Arctic?
    Mr. Slayton. We have tied with the Navy, informal for the 
most part. We have one active-duty naval officer that 
participates at the Hoover Institution, as well as we are 
always open to inform the Navy and the Coast Guard, really, any 
service on the work that we are doing. All the research and all 
the analysis that we do is available publicly, and we are 
always glad to support the DOD and the services.
    Mr. Garamendi. Be very specific. The Coast Guard has some--
we have some interest in this committee with the Coast Guard. 
How do they work with you?
    Mr. Slayton. There is no direct ties at this point.
    Mr. Garamendi. And----
    Mr. Slayton. Other than informally advising the Coast 
Guard.
    Mr. Garamendi. OK. Let's continue on with the research side 
of it, the importance of research on down the line. I suspect 
the answer is ``extremely important,'' but----
    Mr. Rosenberg. Right. It is. We are not directly engaged in 
a lot of Government-funded research, so my concern is mostly 
around the recruiting side of it. So the two dimensions of, you 
know, more STEM awareness at an early age, from middle school 
going on into high school, and then also broadened awareness of 
our maritime academies and the ability to generate some more 
maritime DNA that can enter the workforce.
    Mr. Moore. The three companies that came together to form 
Sea-Bird Scientific, all three started as very small startups 
that basically were holding direct relationships and were 
coming from researcher community, building from science and 
research dollars, supporting the research environment, the 
research environment within the United States, supporting these 
companies as they have grown.
    Presently, we have shifted focus to much more operational 
programmatic efforts. That is, in part, because that is where 
money is these days. We would look at trying to do what we did 
now. In other words, trying to start up a science technology 
business in oceanography, especially within the ocean 
observing, I think it would be a very difficult road at this 
point in time. So, as beneficiaries, we are thankful, but we 
have really seen that tide shift away from research support.
    Mr. Benton. My company has been involved in small business 
innovation research for 25, 30 years now. And we are highly 
ranked in our ability to commercialize stuff. But Dr. Terrill 
mentioned continuity in funding. And one of the huge issues 
that we run into is that you can have a project that is 
successful and then is orphaned because there has not been any 
thought given to the budgeting process to take something that 
is ready to transition and let it get enough legs so that it 
can be supported by private industry.
    So that would be my biggest recommendation, is to make sure 
that funding that does go out there is spread across the whole 
TRL level, so that people can actually get their basic research 
transitioned into an operational condition that will benefit 
the economy and us.
    Mr. Altshuler. So, first of all, I think I would support 
strongly my colleagues here that are advocates for a strong 
research budget. I think there are a couple things we need to 
think about, though, and the first is what do we do relative to 
small business, to product development relative to large 
science programs. Large science programs drive industry in what 
they invest. And industry invests heavily here.
    From a self-centered standpoint, I started out in my 
remarks saying that we are a $600 million business at Teledyne 
Marine. We probably invest $50 million a year in product 
development, in research and development internally, and then 
we have a fraction of that, and probably a smaller fraction 
than most would think, that is federally funded. Where we sell 
is into the science programs.
    So, it is a multiplier effect. If the science programs have 
long legs, they are well thought out, and continuous, then 
industry has the ability to grow around that. And so, I think 
that is really critical, that we build something that is going 
to drive the rest of businesses here to invest their own money 
into growing that economy. Our--the worldwide community is 
doing that, and the worldwide community is copying what the 
U.S. is doing right now.
    Mr. Garamendi. I have run well over my time. I will make a 
couple quick comments.
    The science--the Federal funding for science programs in 
this particular area, in the oceans and ocean observation, 
often wind up at research facilities like Hoover or Scripps, 
both of which are connected to universities, and I suspect it 
is similar around the United States. That funding not only 
deals--not only provides the basic science, and whatever comes 
from that, but it also provides the education for the 
engineers, the scientists, and others. Those are the 
fellowships, the--and the rest that flow from that, so that the 
funding for science is also the funding for education, which is 
the foundation for the workers that the private sector needs.
    And so, as we move this issue forward, if we are going to 
deal with this, we have to come back to the research piece of 
it and make sure that that has long legs, that it is--that 
there is continuity, and, in this particular area, that it is 
available for the ocean sciences in the broadest sense of it. 
Unfortunately, we are not going in that direction. The clear 
indication is that we are backing away from funding basic 
research.
    There are folks, as you say, in Sand Hill Road that are 
happy to pick up--that used to be happy to pick up this. Now 
they want to have a quick turnaround with some sort of an app 
for the iPhone. But hopefully they will get back to more basic 
things that actually have--longer lasting than an app that 
disappears in 6 months because it is replaced by another app.
    I think I had better yield back; I am at least 4 minutes 
and 45 seconds over my time.
    [Laughter.]
    Mr. Garamendi. Mr. Chairman, thank you for the----
    Mr. Hunter. Thank the ranking member. Mr. Rice is 
recognized.
    Mr. Rice. Thank you, gentlemen, for being here today. This 
is very interesting to me. I live on the ocean, and I am an 
avid fisherman, spend a lot of time on the ocean, and truly 
enjoy it. And there are a lot of questions I have, being from 
Myrtle Beach, South Carolina, which is a resort town, and 
somewhat in Hurricane Alley, maybe on the edge of it. Living 
there for decades, and seeing hurricane prediction, and 
predictions of how many hurricanes are going to occur, I have 
to see the--I believe the University of Colorado just said, 
``We are not going to do this any more, because we can't get it 
right.''
    They seem absurdly inaccurate. Almost every single year. 
Are we making any progress in this type of prediction? I mean I 
know it is very difficult to understand these earth systems, 
but are we making progress?
    Mr. Terrill. Well, I see some eyes looking towards me, so I 
will take a stab at this.
    [Laughter.]
    Mr. Terrill. I have actually been involved in hurricane 
research at some level, and so I would like to make some 
comments that the longer range forecasts that University of 
Colorado used to put out, it was a very difficult problem, 
because of the way that the chaos of the system that we are 
dealing with.
    Where we have seen steady improvements every year is in our 
ability to track forecasting. So if you think about hurricanes 
and the evacuations that you have experienced, some estimates I 
have seen cost about $1 million a mile of coastline to evacuate 
shorelines. So the more we can improve track forecasts, the 
better. And we are getting there.
    The difficulties we are having right now are in intensity 
forecasting. And sometimes that threshold of when you evacuate 
is based on what are the strength of the winds, and what will 
those winds be 24, 48 hours out. And the reason our intensity 
forecasts are often lacking is because we don't have good 
information about the ocean heat content.
    Hurricanes are a thermal engine. They depend on the amount 
of heat that is in the upper ocean available to fuel the 
storms. By being able to have better observations of ocean heat 
up near the surface, it will give us better intensity 
forecasts, and that has been demonstrated.
    But, I agree, those long-range forecasts, that is a 
gambling man's game to be in. But that shorter term forecast, I 
think we are making progress.
    Mr. Altshuler. Yes, I would like to comment a little bit 
and add to what Dr. Terrill said.
    Probably one of the most successful ocean observing 
programs worldwide is called the Argo Program. And Scripps has 
a major position in there. Teledyne has a major position. We 
supply two-thirds of what are called profiling floats that 
measure the heat, or the thermal properties of the ocean, down 
to 2,000 meters. And there are some new systems that will go 
all the way down to 6,000 meters. Those allow the ocean 
modeling, which understands the heat content, and thus 
understands the energy budget when you have these types of 
storms. That is one big piece of it.
    The next is more of a tactical piece. And there are some 
new efforts--again, coming out of NOAA and out of IOOS--called 
storm gliders. So they are looking at underwater autonomous 
vehicles that are put out in front of the storms, still out at 
sea, still well away from the shoreline to--really, to start to 
understand the ocean mixing. Because that is the other piece of 
this that becomes very important, is as the storms come 
through, the dynamics of the ocean become different than in the 
steady-state environment, and that changes how the storm 
gathers energy, and how the storm intensifies or doesn't 
intensify.
    The best example of this is probably looking at the loop 
current within the Gulf of Mexico, and what are called core 
eddies that shed off the loop current in the Gulf of Mexico. 
These are very warm pockets of water. Satellite imagery does 
not really tell you how big they big they are and how deep they 
go. But as the storms go over, if they go over a core eddy, 
they can grow from a Category 1 or 2 storm to a Category 5 
storm very, very quickly.
    So, it is a very important process to study the--actually, 
the full 300 or 3-dimensional heat budget of that ocean to be 
able to deal with those types of models.
    Mr. Rice. As an offshore fisherman, I would look at sea 
surface temperature charts to try to find those eddies, because 
often the fish are in those very eddies.
    So, what I am hearing from you is that we are improving in 
tracking and short-term forecasting, but that, really, there is 
not a whole lot of progress in long-term hurricane numbers, 
intensity, all those types of things. Is that correct?
    Mr. Terrill. That is correct. The last large science 
efforts actually came out of the Department of Defense. Office 
of Naval Research sponsored large programs to study the rapid 
intensification of storms, and developed a lot of these 
unmanned technologies we heard about. And we are making 
improvements, but what we are finding is the ocean is 
undersampled. So if we have the data points, we can actually 
get those intensity forecasts a lot better, take advantage of 
some of the hurricane P300 aircraft, putting assets right in 
the path of the storm to get those observations.
    Mr. Rice. The other problem I see with data that is 
erroneous or lacking is in the marine fisheries. I hear a lot 
from fishermen in my district about the fact that fisheries' 
seasons are closed, or the timelines are shortened, based on 
erroneous information in--that the marine life is plentiful, 
particularly in the areas being closed.
    So, is there any improvement in those areas? Can we look 
forward to improved data?
    Mr. Altshuler. I will try that again, although this is 
pushing a little bit.
    There are a couple of interesting efforts that are 
underway. Probably one which is--has U.S. content and has 
Canadian content is called the Ocean Tracking Network. And the 
idea is to tag and track fisheries. So, what ends up happening 
is there is a bottom network of sensors that is watching fish 
moving around through certain restricted areas. That is 
probably the best types of data to get.
    From--other than that, it is a really hard problem to go 
and try to understand. Again, because it is a three-dimensional 
problem in the ocean, and we really don't understand much below 
the surface of the ocean.
    Mr. Rice. Well, and it is unfortunate, because we are 
dealing with people's livelihoods. And when you do things like 
close the black sea bass fishery off South Carolina, and the 
fishermen can't catch anything else, because every time they 
put their line down they catch a black sea bass because there 
are so many of them, it is obviously based on erroneous data. 
And if there is any way we can improve that.
    Has anybody here studied the long-term effects of the 
Deepwater Horizon incident? I am curious about that. No? The--
you know, there is talk of significant oil and gas reserves off 
of the shores of South Carolina, North Carolina, Virginia. And 
there is pushback on doing the testing required. The only 
charts that they have were done 30 years ago, based on antique 
technology, and they are talking of doing sonic testing off the 
shores to determine, with new technology, whether or not these 
reserves exist.
    But there has also been pushback because it would damage 
marine life. Can you describe--can anybody here describe the 
process of this testing, and how it damages marine life? No?
    Mr. Moore. I can take a stab at it.
    Mr. Rice. OK.
    Mr. Moore. At risk of error. In the aftermath of the BP oil 
spill, there was prospect or promise of funding regional 
centers using some of the settlement money--State centers, if 
you will, for excellence, that would be doing various research 
efforts to study the ecosystems within their local environs. 
That funding really hasn't arrived at the centers yet. So there 
has been, basically, a stall in actually doing--going forward.
    There is another body of funding that has been funding 
consortiums from different States in the area that is very 
research-oriented. That funding has started to flow, and there 
has been programmatic efforts going on. But from my--I don't 
have direct knowledge of what progress they have made in 
actually identifying the impact, long term.
    Mr. Rice. Has anybody here been involved in any of this 
sonic testing at all?
    Mr. Moore. Our sensors, our equipment, our----
    Mr. Altshuler. So--and I can add to that. So, I think from 
the standpoint of the surveys, it is what is called a seismic 
survey, where they use large vessels that have streamers, they 
have hydrophone arrays that stream back behind the ships, and 
then they use--right now the current technology is an airgun to 
acoustically activate the water, and put seismic energy into 
the subsurface to look for what is called top salt. It is the 
layer where the potential oil is underneath.
    And there are concerns--it is used a lot, but there are 
environmental concerns relative to that. The type of energy 
that is put into the water column currently--just to give an 
idea of technology development, there are--there is a 
consortium of oil companies, and a program that is being led 
out of Texas A&M University at the environmental station down 
at Texas A&M University to look at other types of technologies, 
to put energy into that sublayer that has less environmental 
issues. That would change how you do the surveys.
    And then, you propagate to what Mr. Moore has been talking 
about, which is, once you are there, it is the environmental 
monitoring. And the things that didn't exist in Deepwater 
Horizon was the response capability to understand when or if 
you have that type of an accident, how you respond and how 
quickly you can understand the oil moving into the water 
column. Because that oil was moving in at 1,200 meters. And 
that is--again, as I have said earlier, it is very hard to 
sample down that deep, and only a few types of systems can 
actually do good measurements there.
    Mr. Terrill. As you mentioned, the sonic testing is using 
airguns. And I think you referred to them as ancient 
technologies. And at those times I don't think we had a good 
understanding of the impacts to marine mammals. Since then, 
with the advent of U.S. Navy sonars, and all the testings and 
investment of research that have gone into them, they have 
started to put criteria, in terms of the amount of sound that 
can be put in the ocean with potential damage to the marine 
mammals.
    Mr. Rice. But----
    Mr. Terrill. But there are some mitigating tools now, I 
think, coming out. Using electromagnetics is one area that oil 
companies are beginning to use that aren't impactful to the 
marine life, that provide alternatives to oil exploration.
    Mr. Rice. I am way over my time, but thank you very, very 
much.
    [Laughter.]
    Mr. Hunter. When only two or three people show up to the 
hearing, you are allowed to go over your time. That is the 
rule.
    [Laughter.]
    Mr. Hunter. I have a question. Just if you could, go down 
the line and give me an example. PortVision is easy to 
understand. Right? I got that, right? I understand how that is 
applicable, why it should be used, what it provides.
    But in practical applicability, to what different agencies 
should be using right now to make their lives easier, or to 
save money, or to save lives, or to be able to do something 
that they can't do right now, could you just kind of give me, 
each of you, what do you think we should be using, any 
Government agency, not--you know, Coast Guard, NOAA, Navy, 
whatever--what should we be using or seeing that we are not, 
for whatever reason? Practically, a real example, if you could.
    Mr. Altshuler. So I will start with a product we make that 
has been successfully used in the ocean. It is relatively new. 
There are approximately 500 that we have sold. And that is 
called an underwater glider. And what it uses is a very slight 
change in the--whether the glider floats or sinks. It is a 
buoyancy engine to move up and down through the water column. 
And it is used to do everything from naval operational ISR to 
core science--and I mentioned storm gliders--including looking 
at storms.
    This is probably one of the core components to both coastal 
and deep ocean observation at the first 1,000 meters of the 
ocean. It is a core element to the ocean observatory's 
initiative. It is--we see it being used worldwide by academic 
organizations and internationally. But it is at its fledgling 
stage. I think that we will see that technology adopted, or we 
should see that technology adopted over the next 10 years. It 
will change how we understand the ocean.
    And as you go down the group of gentlemen here, and we talk 
to even some of the other committees, it is really just a truck 
to take the sensors into the ocean to allow us to understand 
the bits and pieces of it.
    Mr. Benton. Automatic identification systems, you know, the 
traditional ones are very successful. And all of the benefits 
that come out of that also apply to small vessels, when you 
start enabling them.
    So, from the Coast Guard perspective, just being able to 
track where vessels are, support search and rescue, et cetera, 
all of that is supported. From Custom and Border Protection 
perspective, a boat coming over from the Bahamas, gets the cell 
phone wireless network and lights up, and they can start the 
clearing process.
    Also, the whole Internet use of the wireless Internet to 
support maritime stuff is equally applicable for spots like the 
Arctic. The architecture that we are using to support the 
recreational community fits right into the e-navigation 
concepts that IMO is looking at. So, the ability to take 
traditional large vessel bridge information, such as AISA Class 
A and B, repackage that, and bounce it off an Iridium satellite 
into a network architecture, enables a whole lot of stuff to 
start happening to support Arctic operations without putting a 
whole lot of money into building new infrastructure.
    Mr. Moore. We need his truck.
    [Laughter.]
    Mr. Moore. So, the--if we are going----
    Mr. Hunter. If I could--I mean I have been--I have seen a 
lot of autonomous underwater, nonmotorized vehicles, right, 
that have that--they use the swell and kind of like the wings 
that the surfboard--the liquid robotics guys use up in Silicon 
Valley, or whoever. We had some guys in San Diego that have 
their own autonomous vehicle that is kind of self-propelled. 
But I have seen that. So, I mean, that is going to be there.
    Mr. Moore. Yes. And by deploying those, we can address a 
lot of the problems that have come up in the question and 
answer period, including better fisheries management, the 
ability to get the heat--vertical heat transfer in the upper 
water column for storm prediction of intensity. These types of 
problems can be addressed using that type of mechanism. And it, 
right now, seems among the most efficient and cost-effective--
and actually using on a widespread capacity, so----
    Mr. Rosenberg. Yes, I think, from our perspective, 
improving efficiency of commercial vessel movements.
    So, at the Army Corps of Engineers, improving predictive 
forecasting and collaboration around show points on inland 
rivers, lock management and the ability to support more 
efficient queuing in and around locks to be more predictive in 
transit times.
    For Coast Guard and Customs and DHS, again, the frontline 
personnel giving what we call portable MDA or portable maritime 
domain awareness into the hands of those who have to do 
boarding, those who have to do incident investigations, and 
other things that are outside of the command center. And then 
the other things that I talked about earlier.
    Mr. Hunter. Just really quick, can you do--I mean do you 
know right now--do they write algorithms that can queue them, 
the Coast Guard or Homeland Security, off of the information of 
where the ships are coming from and where they are going to, 
and that kind of thing?
    Mr. Rosenberg. So, I mean, there are notices of arrival, 
and there is data around that. It is not typically used for 
what I call berth rotation scheduling, or for actually 
improving the efficiency of once a vessel gets to the sea buoy 
and it moves up to its other activities in and around the port.
    There was a funded initiative called LOMA at the Army Corps 
of Engineers. I believe that that has been defunded, but I am 
not certain. And that was a home-grown system for doing some 
lock automation and lock management.
    Mr. Hunter. Thank you.
    Mr. Slayton. I will talk both for general oceans 
applications as well as High North, in order, for 
infrastructure.
    Again, applaud the efforts of the Army Corps recently, and 
the combined efforts of looking at both Port Clarence and Nome 
for port expansion. I have heard both from State 
representatives, as well as the local municipal leaders, about 
looking at some out-of-the-box applications for expanding the 
capacity and capability of both those port facilities, where 
some of these proposed floating platforms, particularly based 
on the geography, and based on the weather, and based on the 
changing environment, may be extremely beneficial in the High 
North going forward.
    Next, I think as you have heard from all the panelists, the 
increase in communications capability across the board is 
required, and no more so than in the High North. So I think a 
strong look at how some additional fiber can be laid in to 
support the communications and bandwidth infrastructure in the 
High North is definitely warranted.
    We have also heard a lot about the monitoring, and I think 
that is the key. Congressman Rice said--had mentioned about the 
lack of forecasting ability for the oceans. You go up to the 
High North, it is one-third. There is a reason why they say if 
you don't like the weather in Alaska, wait 5 minutes. It is 
because it is very unpredictable.
    And, again, the more we monitor, the more sensors we put 
into the environment, the better those forecasts are going to 
be. And that has a direct effect in risk reduction for the 
folks that are out there trying to make a living on the ocean. 
And that is going to make us more efficient and a better 
economy, going forward.
    Again, applaud the efforts of the unmanned side, both for 
the surface, the underwater, as well as the aerial. And, again, 
I look at the high-endurance, long--high-altitude, long-
endurance UAVs to fill as a space-based gap filler, until we do 
get some additional satellites to cover some of those areas. 
And there is plenty of platforms out there, trucks, that can 
fill that role right now to bring that capability to pass.
    That is all I have. Thank you.
    Mr. Terrill. A couple of points I would like to make is, 
first, I think one activity this subcommittee could be involved 
in is giving a little more legs to the U.S. Coast Guard R&D 
facility to more closely interact with the Naval Research 
Enterprise and other Government agencies that are directly 
involved doing this whole MDA, maritime surveillance process. 
Coast Guard R&D would be a quick study to get up to speed on 
all those types of activities, and be able to leverage that at 
a significant cost savings to the taxpayer.
    That would also include demonstration activities, so that 
we can work in a spiral development world, where we aren't 
placing large sums of resources into making bad mistakes. We 
can make bad mistakes with small investments, and learn lessons 
from those. So that would be one point I would make.
    The other is what I talked about earlier with high-
frequency radar, and how that is used for all the ocean science 
applications, as well as the MDA applications of them. And we 
are running into a little bit of a tragedy where every agency 
thinks the other guy is going to pick up the tab for it. Right 
now we have got NOAA stepping to the plate. They have been 
paying for 50 percent of that system, and it is used by a lot 
of other agencies. So getting some legs into those budgets that 
support those systems that are cutting across a lot of 
agencies--I don't know how to solve that problem, but that is 
one I will point out there.
    And the last point would be that I think the long-term 
investment in ocean technology--specifically STEM--having 
science technology, engineering, mathematics efforts to support 
the future MDA workforce, future naval workforce, is only going 
to benefit this country. So I would encourage that. Thank you.
    Mr. Hunter. That is it for me this morning. Mr. Garamendi?
    Mr. Garamendi. I want to thank the witnesses. Fascinating, 
very interesting. Very, very important.
    It seems to me that there are a couple of things that--
well, I have got a bunch of questions. I think I would like to 
submit them to you gentlemen, and you comment if you care to. 
We can't force you to, but I think it would be helpful. One of 
them has to do with all these UAVs and the security of them. 
Who can hack into them? What happens if they do, and suddenly 
the ship is headed for San Francisco, instead of San Diego? We 
looked at that when we were looking at an L&G terminal off the 
coast of Malibu, and what would happen if we missed the 
location of the ship. Anyway, I would like to look at those 
kinds of things.
    Also, this issue has been raised, the chairman has been all 
over this forever and a day, and he ought to stay with it, and 
that is a lot of work is being done by independent researchers, 
university researchers, and the private sector, and attempting 
to be replicated by, in this case, the Coast Guard. The use of 
PortVision, wherein the Coast Guard would contract for that 
with PortVision, rather than building their own system. So we 
need to look at that across the board and to better utilize the 
private sector's work, and integrate that into the military.
    I was taken by the testimony that you made. I asked about 
the integration of your Arctic program with the U.S. Navy and 
you said, ``Not so much.''
    We are out of time, so I am just going to say I am going to 
let it hang there. And when the opportunity arises to meet with 
the Navy and--I am going to ask them what they are doing in 
working with other organizations, and not invent-it-here 
mentality that exists everywhere--and I suspect in your own 
organizations also.
    I will let it go at that. We will submit to you a series of 
questions. If you care to answer, it would be helpful to us. 
Thank you very much for the testimony.
    Mr. Hunter. I just want to say thanks for coming out. 
Thanks for coming out and kind of making--one of the reasons we 
do this is to simply raise the observation and raise awareness 
that you are out there, and that there is a blue economy, and 
there is this sector of the economy that is kind of--people 
don't really pay attention to. And especially in southern 
California, people had no idea the impact, the good jobs, what 
it means for San Diego, you know, for maritime. So we are 
trying to just raise awareness.
    You know, we don't know if there is going to be a lot of 
funding for this type of stuff going forward. But what it means 
is, like Mr. Garamendi just said, it is not just the Coast 
Guard that could benefit, or the Navy that could benefit, or 
NOAA, or the weather folks. It is everybody, because everybody 
touches the ocean in some way, and maritime touches everybody.
    And so, if there is a way to make sure that anybody that 
has got a stake in this game realizes that they have a stake in 
the game, kind of like the icebreaker for the Arctic, no one 
entity is going to pay for that. It is going to be a lot of 
agencies are probably going to have to help pay for that, if 
they see it as a priority, and that kind of goes along the 
entire section here of maritime technology.
    So, I just want to say thanks for coming out. Thanks for 
talking with us. And thank you, witnesses. The subcommittee 
stands adjourned.

    [Whereupon, at 11:06 a.m., the subcommittee was adjourned.]
</pre></body></html>
